No.
IN THE SUPREME COURT OF THE UNITED STATES
_________________
DONALD J. TRUMP, PRESIDENT OF THE UNITED STATES,
ET AL., PETITIONERS
v.
COMMONWEALTH OF PENNSYLVANIA, ET AL.
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the PETITION FOR A WRIT OF CERTIORARI, via email and first-class mail, postage
prepaid, this 3rd day of October, 2019.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 8,981
words, excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I
declare under penalty of perjury that the foregoing is true and correct. Executed on
October 3, 2019.

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
October 3, 2019
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisor,
Case Management, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

DONALD J. TRMUP, PRESIDENT OF THE UNITED STATES,
ET AL.
COMMONWEALTH OF PENNSYLVANIA, ET AL.
MICHAEL J. FISCHER
CHIEF DEUPTY ATTORNEY GENERAL
PENNSYLVANIA OFFICE OF ATTORNEY GENERAL
1600 ARCH STREET
SUITE 300
PHILADELPHIA, PA 19103
215-560-2171
MFISCHER@ATTORNEYGENERAL.GOV
GLENN J. MORAMARCO
ASSISTANT ATTORNEY GENERAL
NEW JERSEY ATTORNEY GENERAL’S OFFICE
RICHARD J. HUGHES JUSTICE COMPLEX
25 MARKET STREET
TRENTON, NJ 08625
609-376-3235
GLENN.MORAMARCO@LAW.NJOAG.GOV
MARK L. RIENZI
THE BECKET FUND FOR RELIGIOUS LIBERTY
1200 NEW HAMPSHIRE AVENUE, NW
SUITE 700
WASHINGTON, DC 20036
202-955-0095
MRIENZI@BECKETTLAW.ORG

